March 30, 2011

NANCY L. RETTINHOUSE
DISTRICT MANAGER, CHICAGO DISTRICT

SUBJECT:           Audit Report – City Delivery Efficiency Review – Chicago District
                   (Report Number DR-AR-11-004)

This report presents the results of our City Delivery Efficiency Review – Chicago
District1 (Project Number 11XG005DR000). Our objectives were to assess overall
efficiency of city delivery operations and identify opportunities to reduce operating costs
within the Chicago District. This self-initiated audit addresses operational risk and is the
seventh in a series being conducted by the U.S. Postal Service Office of Inspector
General (OIG). See Appendix A for additional information about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. The Postal Service must achieve unprecedented levels of efficiency to
accommodate this new growth while facing financial losses from declining mail volume
and rising costs.

Conclusion

The Chicago District was not operating at peak efficiency and could reduce city delivery
operating costs. Our benchmarking comparison determined the Chicago District’s
percent to standard measurement2 was 120.04 percent (or 14.9 percentage points)
above the national average of 105.14 percent. In other words, carriers in the Chicago
District used approximately 16 minutes more per carrier route than carriers on the
average route in the nation.

Operation Efficiency

Although numerous factors were involved, our review of 20 randomly selected delivery
units determined that district management did not always (1) provide sufficient review
and oversight of units’ office operating efficiencies and (2) coordinate with mail
processing facilities to ensure mail was received timely and in a condition that promoted
office operating efficiency.

1
  The Chicago District is one of nine districts in the Great Lakes Area. It consists of 49 city delivery units that deliver
mail on 2,304 city routes with more than 1,235,076 delivery points.
2
  Measures carrier office workhour performance in relation to mail volume and delivery points. A figure of 100 percent
indicates the office performed at the stated performance goal. A figure greater than 100 percent indicates
performance is less than the desired standard.
City Delivery Efficiency Review –                                                                  DR-AR-11-004
 Chicago District



An increased focus on efficiency could allow management to reduce delivery operating
workhours. For example, management needs to ensure that:

   Management discusses morning and afternoon office expectations with carriers.

   Units receive the proper mail mix in the proper condition from the processing
    facilities based on an effective integrated operating plan (IOP).3

   Carriers spend less time waiting for mail.

   Carriers do not unnecessarily handle delivery point sequence4 (DPS) or other
    sequenced mailing.5

   Carriers conduct vehicle inspections and management assigns parking spaces.

See Appendix B for our detailed analysis of this topic.

Consequently, the Chicago District used more workhours than necessary to deliver the
mail. Adjusting its operations would increase the district’s overall efficiency by reducing
188,884 workhours, resulting in savings of more than $6.5 million annually, or about
$65 million over 10 years. See Appendix C for additional information about the
monetary impact.

Recommendations

We recommend the district manager, Chicago District:

1. Reduce the district’s workhours by 188,884 to achieve an associated economic
   impact of more than $6.5 million annually, or in excess of $65 million over 10 years.

2. Reinforce Postal Service policy and procedures for supervising city delivery office
   operations in delivery units and eliminate inefficient practices as appropriate.

3. Require processing facility managers and delivery managers to regularly coordinate,
   review, and update all integrated operating plans to ensure mail arrives timely and in
   the condition necessary to promote office efficiency.

Management’s Comments


3
  A contract that covers mail arrival from the plant and identifies the product of mail agreed for each individual trip.
The primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats) based on
other requirements for mail arrival, such as the mail mix/unit distribution percentage.
4
  A process for sorting bar-coded letter mail at processing plants and delivery units into the carrier’s line-of-travel.
Mail is taken directly to the street, with no casing time in the office.
5
  One that is distributed to the carrier in delivery sequence order. It is different from DPS in that the mailer prepares it
in sequence instead of the Postal Service having to sequence it.


                                                             2
City Delivery Efficiency Review –                                      DR-AR-11-004
 Chicago District

Management agreed with the findings, recommendations, and opportunities to capture
188,884 workhours annually.

In response to recommendation 1, management agreed with the 188,884 workhour
savings; however, they did not agree with the monetary value of the workhours.
Management stated a variety of complex variables were excluded that impact salary
and benefit expense, resulting in a higher value than can be realistically attained.
Management stated that they plan to reduce workhours by continuing to focus on
improving city delivery efficiencies through completing Managed Service Point training
for all city delivery management personnel, capturing carryover saving from route
adjustments, implementing Flat Sequence Sortation (FSS) route adjustment, and
increasing DPS to 92 percent. Further, management stated they will continue ongoing
actions to improve operational efficiency and capture saving by focusing on productivity
improvements, pivoting opportunity, overtime reduction, and route
adjustments/reductions.

Management responded to our second recommendation stating they will reinforce the
requirement to use the Delivery Operations Information System (DOIS) to identify and
communicate performance expectations to carriers. Chicago District management will
implement random spot checks to validate improved supervisory behavior and conduct
Morning (AM) Standard Operating Procedures (AMSOP) II reviews to further reinforce
daily requirements and expectations. In addition, to ensure station management have
the knowledge and skills needed, Postal Service provided training on DOIS and
completed proper volume recording in October 2010; training in AMSOP II will be
completed in April 2011 to reinforce data driven decisions; and training in editing 3999s
compatible with Carrier Optimal Routing was completed in February 2011.

Management responded to our third recommendation stating that each day Chicago
District operation leadership and support staff discuss late trips, root causes, and the
actions necessary to correct recurrences. In addition, management stated meetings are
currently scheduled to update IOP agreements with units targeted for FSS to be
completed first with the remainder to be completed by the end of fiscal year (FY) 2011.
See Appendix E for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

Although management agreed with the 188,884 workhour savings, they did not agree
with the associated estimated dollar value of the workhours because of excluded
variables. However, in this report, as well as the six similar reports, we have
consistently used the Postal Service’s national average city delivery carrier labor rates
established for FYs 2009 through 2011. The rates are fully loaded, and include fringe
benefits, service-wide costs, and applicable lump sum payments. The workhour rate
guidance states that the rates represent the cost of a productive workhour and are best


                                            3
City Delivery Efficiency Review –                                     DR-AR-11-004
 Chicago District

suitable for national comparisons. In addition, we used 10 years to project savings per
OIG policy, which states “generally, any recommendation which will result in a perpetual
cost avoidance or perpetual revenue increase justifies a discounted cash flow
calculation. Generally, a 10-year cash flow analysis is reasonable.” As such, we believe
the estimated dollars savings are reasonable and properly computed.

The OIG considers recommendation 1 significant, and therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

     E-Signed by Robert Batta
   VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Dean J. Granholm
    Elizabeth A. Schaefer
    Philip F. Knoll
    Jo Ann Feindt
    Corporate Audit and Response Management




                                           4
City Delivery Efficiency Review –                                                             DR-AR-11-004
 Chicago District



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations are the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Although delivery
operations used fewer workhours in FY 2010, workhour reduction has not kept pace
with declining mail volume. Nationally, mail volume declined by 3.9 percent during
FY 2010, ending September 30, 2010. During this same period, mail volume declined in
the Great Lakes Area by 4.9 percent while workhours declined by 3.1 percent, and in
the Chicago District mail volume declined by 6.5 percent while workhours declined by
3.1 percent.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess overall efficiency of city delivery operations and identify
opportunities to reduce operating costs within the Chicago District. To accomplish our
objectives, we:

   Ranked the eight Postal Service areas from highest to lowest in terms of percent to
    standard from October 1, 2009, through September 30, 2010. We used the eFlash6
    national percent to standard measurement of 105.14 percent as a baseline guide;

   Used our benchmarking comparison of eFlash data to determine the Chicago
    District’s percent to standard measurement was 14.9 percentage points higher than
    the national average (120.04 percent compared to the national average of 105.14
    percent). In other words, according to eFlash data the Chicago District used
    approximately 167 minutes more than the average route in the nation;

   Judgmentally selected the Great Lakes Area and, within that area, the Chicago
    District for review; and

   Randomly selected 20 delivery units within the Chicago District for review.

At the selected delivery units, we:

   Obtained, reviewed, and analyzed delivery unit data related to office operations;

   Conducted interviews on-site and obtained information on carrier operations, unit
    operations, processes, and procedures;

6
  A weekly operating reporting management system that combines data from delivery, mail processing, employee
relations, labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.
7
  11,333,040 minutes (188,884 hours above the national average percent to standard multiplied by 60 minutes per
hour) divided by 2,304 routes in the Chicago District divided by 302 annual delivery days equals approximately
16 minutes per route per day.


                                                           5
City Delivery Efficiency Review –                                          DR-AR-11-004
 Chicago District

      Conducted physical observation of office delivery operations; and

      Reviewed documentation and applicable policies and procedures for city delivery
       and Postal Service Handbooks M-398 and M-41.9

We conducted this performance audit from November 2010 through March 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on February 17, 2011, and included
their comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
eFlash. We did not directly audit the systems but performed limited data integrity review
to support our data reliance. We assessed the reliability of delivery point’s data by
reviewing existing information about the data and the system that produced them, as
well as interviewing agency officials knowledgeable about the data. We determined that
the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG has issued six reports related to our objective in the last several years. See
Appendix D for details.




8
    Management of Delivery Services, March 1998.
9
    City Delivery Carriers Duties and Responsibilities, March 1998.


                                                            6
City Delivery Efficiency Review –                                                         DR-AR-11-004
 Chicago District



                                APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

The Chicago District used 188,884 more workhours than necessary. Our benchmarking
comparison determined the Chicago District’s percent to standard measurement was
14.9 percentage points above the national average (120.04 percent compared to the
national average of 105.14 percent). In other words, the district used approximately
16 minutes10 more per day on each carrier route than other districts. From
October 1, 2009, through September 30, 2010, the Chicago District’s percent to
standard was ranked ninth among nine districts in the Great Lakes Area (see Table 1).

               Table 1. Great Lakes Area Percent to Standard Comparison
                        October 1, 2009, through September 30, 2010
                                                   Percent to       Ranking
                                                   Standard
             National Average                       105.14            N/A
             Districts in Great Lakes Area
             Greater Indiana                          97.01            1
             Central Illinois                         99.97            2
             Gateway                                102.32             3
             Lakeland                               104.26             4
             Northern Illinois                      104.55             5
             Greater Michigan                       105.03             6
             Detroit                                108.00             7
             Southeast Michigan                     114.56             8
             Chicago                                120.04             9
             Source: eFlash

This condition existed because management did not always (1) provide sufficient review
and oversight of units’ office operating efficiencies and (2) coordinate with the mail
processing facility to ensure mail was timely received and in the condition necessary to
promote office operating efficiency.

Setting Morning and Afternoon Office Expectations

Supervisors did not always set expectations for morning office operations or review the
previous day’s performance with carriers.

    Supervisors often printed the DOIS Route/Carrier Daily Performance/Analysis
     Report but did not discuss the report with carriers in 16 of 20 delivery units
     observed. This report would help eliminate time-wasting practices. If a carrier does

10
 11,333,040 minutes (188,884 hours multiplied by 60 minutes per hour) divided by 2,304 routes in the Chicago
District divided by 302 annual delivery days equal approximately 16 minutes per route per day.


                                                        7
City Delivery Efficiency Review –                                                      DR-AR-11-004
 Chicago District

    not meet performance standards, supervisors must investigate and discuss
    performance deficiencies with the carrier.

   In 18 of 20 delivery units, we found that monitoring of carrier afternoon office time
    needed improvement. We observed some carriers spending more time than the
    standard 5 minutes allowed in the office after returning from their routes. Further,
    review of the Route/Carrier Daily Performance/Analysis Report often showed a
    number of routes with zero minutes for ‘PM office time.’ This indicated carriers were
    not clocking back to the office upon returning to the unit in the afternoon, resulting in
    much of this additional office time being included in street operations time. This
    occurred because supervisors did not always provide appropriate oversight of
    carriers in the afternoon.

Mail Arrival

Mail arrived late in 12 of 20 delivery units we observed, resulting in some carriers
having to wait up to 1 hour for the mail. This occurred because mail arriving from the
plant did not always match the agreed upon time and mail mixture outlined in the IOP.
In some cases, the IOP was incomplete or not found in the unit. The IOP is designed to
help stabilize mail flow and is critical in establishing appropriate staffing and reporting
times to ensure carriers are not delayed. Examples include:

   In several instances, unit management required carriers to either wait for Express
    Mail to arrive before leaving the office or return to the unit from the street to obtain
    Express Mail. Chicago District management agreed that Express Mail processing
    needs improvement and they are considering various solutions.

   In 15 of 20 units, some carriers waited additional time to obtain accountable items,
    such as certified or Registered Mail™. Postal Service policy11 states that
    accountable items must be available to carriers in a timely manner to avoid delays.
    Because carrier time should be minimized in accountable operations, management
    encourages use of mobile accountable carts12 (see Illustration 1).




11
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 3-1, 2007.
12
   Clerks use accountable carts to transport items from the accountable cage to carriers.


                                                      8
City Delivery Efficiency Review –                                                    DR-AR-11-004
 Chicago District


                lllustration 1: Carriers Waiting in Line to Obtain Accountables




                           Source: OIG

Mail Condition

In five of the 20 delivery units observed, DPS letters processed by the plants arrived at
delivery units in mail transport containers that were not staged for easy retrieval by the
carriers. This required clerks and sometimes carriers to unload and sort through
transport containers, which delayed carriers unnecessarily. Postal Service policy13
states that mail processing plants should stage DPS letters for transport in shelved or
modified containers so individual trays do not have to be re-handled at the delivery unit
(see Illustration 2).

                       Illustration 2: DPS Mail in Unshelved Container




                         Source: OIG

Additionally, letter mailpieces were sometimes processed as flat mailpieces at the
processing and distribution centers. When letters are processed as flats, the route is
13
 Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 2-6.


                                                     9
City Delivery Efficiency Review –                                                           DR-AR-11-004
 Chicago District

given more than twice the amount of earned workhours per letter.14 In other words, each
letter that is processed as a flat takes twice the normal casing time than when it is
correctly processed as a letter. This can cause a delivery unit to appear more efficient
by artificially lowering the percent to standard. Letters are sometimes processed by the
plant this way because of potential rejection of letter mailpieces processed with letter
processing equipment versus flat mail equipment (see Illustration 3).

                             Illustration 3: Letters Processed as Flats




                    Source: OIG




14
  Postal Service Handbook M-39, Section 222.214a(4), states that standard processing time is 18 letters in 1 minute
and eight flats in 1 minute.


                                                        10
City Delivery Efficiency Review –                                                            DR-AR-11-004
 Chicago District

Carriers Handling DPS and Sequenced Mailings

Carriers often handled DPS letters and cased other walk sequenced mail on office time
rather than take directly to the street for delivery.15 During our site visits, 18 of the 20
units received sequenced mailings. Of these, 17 had carriers that were observed
handling or casing these mailings incorrectly (see Illustrations 4 and 5).

                             Illustration 4: Carriers Handling DPS Mail




                  Source: OIG

                       Illustration 5: Carrier Casing Sequenced Mailings




                  Source: OIG



15
  Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 222(a) “. . .sequenced mailings shall
not be cased but shall be handled as additional bundles. . .”


                                                         11
City Delivery Efficiency Review –                                                      DR-AR-11-004
 Chicago District

These conditions occurred because delivery unit personnel were unaware of the
removal of a temporary directive requiring a review of the sortation of DPS mailings in
the office. Postal Service policy16 states that DPS mail is not to be distributed to carriers
but staged near the exit for transport to vehicles and that walk sequenced mailings17
should be isolated by clerks and placed in parcel hampers so they can be taken directly
to the street without further handling.

Vehicle Inspections

Supervisors did not provide sufficient oversight of morning vehicle inspections.
Specifically, in all 20 locations observed, vehicle inspections were not conducted. In
addition, parking spaces were unassigned in 16 of the 20 delivery units. Postal Service
policy states that employees should park vehicles near the dock in assigned spaces
identified by individual route numbers and conduct vehicle inspections promptly after
clocking in for the morning. Carriers can incur unnecessary delays by not conducting
vehicle inspections to identify mechanical issues before start of route and having to
search for their vehicle.

By reviewing workhour and workload utilization and improving oversight of office
processes, management would increase Chicago District efficiency, thereby saving
approximately $6.5 million annually, or more than $65 million over 10 years (see
Appendix C).




16
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007.
17
   Field Operations Standardization Development, AMSOP II Guidebook, 2007, Section 3-13.


                                                     12
City Delivery Efficiency Review –                                                            DR-AR-11-004
 Chicago District


                                 APPENDIX C: MONETARY IMPACT

          Finding                           Impact Category                                  Amount
     Operating Efficiency                Funds Put to Better Use18                         $65,362,706


We estimated the monetary impact of $65,362,706 in funds put to better use by
reducing 188,884 workhours at delivery units in the Chicago District. This amount
included an estimated cost savings of $62,906,657 from reducing city letter carrier
positions over 10 years and $2,456,049 in reduction of delivery office overtime
workhours over 2 years (see Table 2).

                 Table 2. Chicago District Delivery Units Workhour Savings

District                Delivery      Estimated          10-Year              2-Year                Estimated
                        Units         City               Projection of        Projection of         Total
                                      Delivery           Savings from         Savings from          Savings
                                      Workhours          Full FTEs            Partial FTEs
                                      Saved19            Workhour             Overtime
                                                         Reduction            Workhours
Chicago                     49           188,884          $62,906,657           $2,456,049           $65,362,706
Source: OIG

    We calculated funds put to better use of full-time equivalents (FTEs) over 10 years
     using the FY 2011 city carrier level 2 fully loaded labor rate with an escalation factor
     of 1.017 percent.

    To determine the reduction of city carrier FTE positions, we used a cash flow
     analysis based on city carrier complement and attrition from Webcoins Information
     for October 1, 2005, through September 30, 2010. We used this to determine how
     many city letter carriers are estimated to leave in future years.

    We used the discount rate of 3.875 percent based on the Postal Service’s decision
     analysis report factors (cost of borrowing rate).

    We calculated funds put to better use for reducing city carrier workhours not
     equivalent to a FTE using the city carrier overtime rate for FY 2011 with an
     escalation factor of 1.017 percent for the 2-year projection.




18
  Funds that could be used more efficiently by implementing recommended actions.
19
  The reduction of these hours results in a projected FTE reduction of 89 positions over 10 years and a reduction of
33,134 overtime workhours over 2 years.


                                                         13
    City Delivery Efficiency Review –                                          DR-AR-11-004
     Chicago District


                               APPENDIX D: PRIOR AUDIT COVERAGE

    The OIG identified six audits related to our objective that were issued over several
    years:

                                            Final
                                           Report          Monetary
  Report Title       Report Number          Date            Impact                 Report Results
City Delivery        DR-AR-11-002       1/18/2011        $93,143,986   The New York District has
Efficiency                                                             opportunities for enhanced efficiency
Review-New                                                             and reduced workhours. Our
York District                                                          benchmarking comparison
                                                                       determined the New York District’s
                                                                       percent to standard measurement
                                                                       was 127.05 (or 21.1 percentage
                                                                       points) above the national average of
                                                                       105.95 percent. In other words, the
                                                                       district used approximately
                                                                       37 minutes more than the average
                                                                       carrier route in the nation. However,
                                                                       because of unique delivery issues
                                                                       specific to the New York District, we
                                                                       used 25 minutes per carrier route.
                                                                       Management agreed with the
                                                                       findings, recommendations, and
                                                                       monetary impact.
City Delivery        DR-AR-11-003       1/20/2010        $32,171,718   The Northern Virginia District was not
Efficiency-                                                            operating at peak efficiency and
Northern Virginia                                                      could reduce city delivery operating
District                                                               costs. Our benchmarking comparison
                                                                       determined the Northern Virginia
                                                                       District percent to standard
                                                                       measurement was 123.24 (or
                                                                       17 percentage points) above the
                                                                       national average of 105.05 percent.
                                                                       In other words, the district used
                                                                       approximately 16 minutes more than
                                                                       the average carrier route in the
                                                                       nation used. Management agreed
                                                                       with the findings, recommendations,
                                                                       and monetary impact.




                                                    14
     City Delivery Efficiency Review –                                          DR-AR-11-004
      Chicago District


                                             Final
                                            Report          Monetary
  Report Title        Report Number          Date            Impact                 Report Results
City Delivery         DR-AR-10-009       9/24/2010        $27,374,309   The Atlanta District was not
Efficiency                                                              operating at peak efficiency and
Review-Atlanta                                                          could reduce city delivery operating
District                                                                costs. Our benchmarking comparison
                                                                        determined the Atlanta District used
                                                                        approximately 9 minutes more per
                                                                        day than the national average for
                                                                        each carrier route, compared to the
                                                                        standard for that route. The
                                                                        measurement for this factor, called
                                                                        percent to standard, was 111.18,
                                                                        about 5 percentage points above the
                                                                        national average of 106.49 percent.
                                                                        Management agreed with the
                                                                        findings, recommendations, and
                                                                        monetary impact.
City Delivery         DR-AR-10-007       8/26/2010        $79,016,988   The Bay Valley District was not
Efficiency                                                              operating at peak efficiency and
Review-Bay                                                              could reduce city delivery operating
Valley District                                                         costs. Our benchmarking comparison
                                                                        determined the Bay Valley District
                                                                        used approximately 13 minutes more
                                                                        per day than the national average for
                                                                        each carrier route, compared to the
                                                                        standard for that route. The
                                                                        measurement for this, called percent
                                                                        to standard, was 115.93,
                                                                        9 percentage points above the
                                                                        national average of 106.49.
                                                                        Management agreed with the
                                                                        findings, recommendations, and
                                                                        monetary impact.




                                                     15
    City Delivery Efficiency Review –                                            DR-AR-11-004
     Chicago District


                                            Final
                                           Report           Monetary
  Report Title       Report Number          Date             Impact                  Report Results
City Delivery        DR-AR-10-006       7/1/2010          $105,056,064   The Los Angeles District was not
Efficiency                                                               operating at peak efficiency and
Review-Los                                                               could save workhours and reduce
Angeles District                                                         city delivery operating costs. Our
                                                                         benchmarking comparison
                                                                         determined the Los Angeles District
                                                                         used approximately 26 minutes more
                                                                         per day than the national average for
                                                                         each carrier route as compared to
                                                                         the standard for that route. The
                                                                         measurement for this, called percent
                                                                         to standard was 124.17, about 17
                                                                         percentage points above the national
                                                                         average of 107.19 percent.
                                                                         Management agreed with the
                                                                         findings, recommendations, and
                                                                         monetary impact.
City Delivery        DR-AR-10-002       12/18/2009        $21,308,433    The audit concluded the Napoleon
Efficiency                                                               Street Station was not operating at
Review                                                                   peak efficiency and management
– San Francisco                                                          could reduce city delivery costs. Our
Napoleon Street                                                          benchmarking comparison of five
Station                                                                  similar delivery units showed this
                                                                         station used 54,975 hours more than
                                                                         necessary. We also found
                                                                         management did not adjust
                                                                         workhours to the changes in
                                                                         workload. Management agreed with
                                                                         our findings and recommendations to
                                                                         correct the issues identified.




                                                     16
City Delivery Efficiency Review –                            DR-AR-11-004
 Chicago District



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                        17
City Delivery Efficiency Review –        DR-AR-11-004
 Chicago District




                                    18
City Delivery Efficiency Review –        DR-AR-11-004
 Chicago District




                                    19
